              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections




Inspection Report
 Inspection of Implementation of
 Corrective Actions Resulting From
 Force-on-Force Performance Tests




DOE/IG–0585                                 February 2003
MANAGEMENT REACTION

Management concurred with our recommendations and advised that the Los Alamos Site Office
is taking action to preclude recurrence of the documentation issues. They further advised that the
Federal Site Manager for Pantex would review the noted discrepancy to determine what
corrective actions should be taken.

Attachment

cc:   Deputy Secretary
      Acting Administrator, National Nuclear Security Administration
      Under Secretary for Energy, Science, and Environment
      Director, Office of Independent Oversight and Performance Assurance
      Director, Office of Security
      Chief, Defense Nuclear Security
      Director, Policy and Internal Controls Management
INSPECTION OF IMPLEMENTATION OF CORRECTIVE
ACTIONS RESULTING FROM FORCE-ON-FORCE
PERFORMANCE TESTS




TABLE OF
CONTENTS



              Overview

              Introduction and Objective………………………….……… 1

              Observations and Conclusions…………………….……… 1


              Details Of Findings

              Closure of LANL Milestones….….…………………..……. 2

              Fitness-for-Duty Checks………………….……………….     2


              Recommendations………………………………………... 3


              Management Comments…………………………………. 3


              Inspector’s Comments……………………………………. 3


              Appendix

              A. Scope and Methodology……………………………….. 4
Overview

INTRODUCTION                           The Office of Independent Oversight and Performance Assurance
AND OBJECTIVE                          (OA) conducts reviews of Department of Energy (DOE) facilities
                                       and operations to evaluate the status of, among other things,
                                       safeguards and security matters. Integral to these reviews are
                                       force-on-force performance tests. These are major tests of the
                                       overall effectiveness of all site safeguards and security elements
                                       involved in responding to a hypothetical threat scenario based on
                                       the design basis threat1 and identified site-specific threats. These
                                       tests employ an adversary team that tests the skills, procedures and
                                       equipment of those forces responsible for protecting DOE site
                                       security interests.

                                       The objective of our inspection was to determine if DOE has taken
                                       corrective actions to address findings resulting from recent force-
                                       on-force performance tests that were conducted at the Pantex Plant
                                       (Pantex) during January 24-March 17, 2000, and at Los Alamos
                                       National Laboratory’s (LANL’s) Technical Area 18 during
                                       October 2-12, 2000.


OBSERVATIONS AND                       The force-on-force tests at Pantex resulted in one finding. The
CONCLUSIONS                            finding was validated as completed on December 19, 2000. The
                                       tests at LANL resulted in six findings, which were open at the time
                                       of our inspection. We found that corrective action plans and
                                       associated milestones have been developed for each of the findings
                                       at both sites. We determined that the process of documenting
                                       activities associated with corrective action plan milestones at
                                       LANL could be improved.

                                       We also determined that conflicts between security procedures and
                                       local security contracts created problems for supervisors at Pantex
                                       when conducting required fitness-for-duty checks of all Security
                                       Police Officers (SPOs). These checks are conducted to ensure that
                                       SPOs have all required equipment before going on patrol. While
                                       not in the scope of the inspection, we observed one SPO who did
                                       not have his protective mask while on patrol at Pantex. We
                                       subsequently learned that procedural difficulties prevented
                                       supervisors from ensuring that SPOs had all required equipment
                                       before going on patrol. We concluded that actions are needed to
                                       ensure that complete fitness-for-duty checks are performed.



1
    The design basis threat, which is issued by the Office of Security, identifies and characterizes the potential generic
     adversary threats to DOE programs and facilities.

Page 1                                                          Inspection of Implementation of Corrective
                                                                Actions Resulting From Force-on-Force
                                                                Performance Tests
Details of Findings

Closure of LANL       We determined that all six findings at LANL were open because
Milestones            closure of the corrective action plans was dependent upon
                      completion of long-term milestones associated with the corrective
                      actions. These included a major construction project and actions
                      not directly within LANL’s control, such as assessments by outside
                      agencies.

                      We found the following issues regarding LANL’s documentation
                      of milestones:

                         •   Documentation supporting the closure of three milestones
                             in one corrective action plan and one milestone in another
                             corrective action plan was not included in the files;

                         •   Documentation supporting two corrective action plans
                             incorrectly indicated that a milestone in each plan was
                             closed; and

                         •   Action relating to changes in one key milestone was not
                             adequately coordinated with all appropriate officials,
                             mistakenly resulting in a two-year extension of the
                             milestone.

                      Upon learning of these issues from the Office of Inspector General,
                      DOE’s Los Alamos Area Office and the Director of LANL’s
                      Security and Safeguards Division, took immediate corrective actions.

Fitness-for-Duty      During our inspection, we found that protective force supervisors at
Checks                Pantex were not conducting complete fitness-for-duty checks of all
                      SPOs. The checks ensure that SPOs possess all necessary and critical
                      equipment before reporting for duty and are required by Pantex’s
                      “Security Force Orders, Supervisors Guidelines,” dated July 1, 2001.
                      Inspectors observed one SPO who did not possess a critical piece of
                      equipment (i.e., protective mask) while on patrol. We found that
                      conflicts involving the supervisor’s guidelines, the negotiated union
                      agreements, and unwritten safety practices created an environment
                      where complete fitness-for-duty checks were not being conducted.

                      According to a senior Pantex official, the current procedure for
                      fitness-for-duty checks “…as written now, is unenforceable.” We
                      learned that the current guidelines call for these checks to be
                      conducted before official duty time, which is contrary to the
                      negotiated agreements. Under a current unwritten practice and as an
                      apparent compromise, supervisors conduct a limited fitness check of
                      SPOs in the armory when the SPOs check out their weapons before
                      going on duty.


Page 2                                                              Details of Findings
Recommendations
                  However, another unwritten safety practice prevents the SPOs
                  from bringing all required duty equipment into the armory.
                  Consequently, the supervisors’ fitness checks do not ensure that
                  SPOs have all required duty equipment before going on patrol.

                  We concluded that internal policies and procedures need to be
                  reviewed and strengthened at LANL to ensure that corrective action
                  milestones are adequately documented. Inadequate documentation
                  may lead to an oversight with respect to an important corrective
                  measure. Additionally, policies and procedures at Pantex should be
                  strengthened to ensure that complete fitness-for-duty checks are
                  performed before SPOs go on patrol. Proper equipment is
                  imperative for SPO safety and a viable site protective strategy.


RECOMMENDATIONS   We recommend that the Associate Administrator for Facilities and
                  Operations, National Nuclear Security Administration, ensure that:

                  1. LANL officials ensure that internal controls are strengthened
                     so that completion of each corrective action milestone for
                     future force-on-force findings is adequately documented.

                  2. Internal policies and procedures at Pantex are reviewed and
                     strengthened to ensure that 100 percent complete fitness-for-
                     duty checks of SPOs are performed.


MANAGEMENT        In comments dated December 4, 2002, management concurred
COMMENTS          with our recommendations. Management advised that the Los
                  Alamos Site Office is working with the LANL Safeguards and
                  Security Division to preclude recurrence of the documentation
                  processing issues. They further advised that the Federal Site
                  Manager and the contractor at Pantex will review the noted
                  discrepancy and the contract to determine what corrective actions
                  should be taken.


INSPECTOR’S       We consider management’s comments and actions responsive to
COMMENTS          our recommendations and the issues addressed in our report.




Page 3                                                          Recommendations
Appendix A
SCOPE AND     Our review was conducted during the period February 2002 to
METHODOLOGY   April 2002. As part of our review, we interviewed Department of
              Energy (DOE) Headquarters officials in the Office of Defense
              Programs, National Nuclear Security Administration; the Office of
              Independent Oversight and Performance Assurance (OA); and the
              Office of Security. We also interviewed DOE officials at the Los
              Alamos Area Office and the Office of Amarillo Site Operations, as
              well as DOE contractor officials at the Los Alamos National
              Laboratory and the Pantex Plant.

              We reviewed documentation concerning force-on-force
              performance tests and OA inspections including:

              •   DOE Order 470.2A, “Security and Emergency Management
                  Independent Oversight and Performance Assurance Program,”
                  dated March 1, 2000.

              •   DOE Order 470.1, “Safeguards and Security Program,” dated
                  September 28, 1995.

              •   DOE Order 473.2, “Protective Force Program,” dated
                  June 30, 2000.

              •   DOE Manual 473.2-2 Chg 1, “Protective Force Program
                  Manual,” dated December 20, 2001.

              •   OA report entitled “Independent Safeguards and Security
                  Inspection of the Pantex Plant,” dated April 17, 2000.

              •   OA report entitled “Special Review of Security Measures at
                  TA-18, Los Alamos National Laboratory,” dated
                  October 31, 2000.

              •   DOE Order 5632.7A, “Protective Force Program,” dated
                  April 13, 1994.

              We also reviewed the corrective action plans addressing the OA
              inspections at the Los Alamos National Laboratory and the Pantex
              Plant.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 4                                               Scope and Methodology
                                                                    IG Report No. DOE/IG-0585

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
